Oversight Review                      May 22, 2009 



Report on Review of the Department of Military and 

 Veterans Affairs Single Audit for the Audit Period 

  October 1, 2005 through September 30, 2007 



             Report No. D-2009-6-005

  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at www.dodig.mil/audit/reports or contact the Office of
  the Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760
  or fax (703) 604-8982.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760
  (DSN 664-8760) or fax (703) 604-9808. Ideas and requests can also be mailed to:

                       Office of the Assistant Inspector General
                            for Audit Policy and Oversight
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 833)
                              Arlington, VA 22202-4704




Acronyms

OMB           Office of Management and Budget
AICPA         American Institute of Certified Public Accountants
                                     INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     . 400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704



                                                                                  MAY 22 2009
Chief Financial Officer
Department of Military and Veterans Affairs

Auditor General
Office of the Auditor General, State of Michigan

Chief
National Guard Bureau

SUBJECT: Report on Review of the Depatiment of Military and Veterans Affairs Single Audit
         for the Audit Period October I, 2005 through September 30, 2007
         (Report No. D-2009-6-005)

         We are providing this repOli for your review and comment. We considered management
comments on the draft of this repoli when preparing the final report. As a result of management
comments to the draft report, we added Recommendations 3a and 3b to the Chief of the National
Guard Bureau to the final report, attd request that the Chief provide written comments to the
additional recommendations. We also request that the Chief Financial Officer, Department of
Military and Veterans Affairs reconsider its position on Recommendation I a and the Auditor
General, Office of the Auditor General, State of Michigan, reconsider its position on
Recommendation 2a and provide comments to these recommendations in response to this final
report. Additionally, we request that the Office of the Auditor General provide us with a written
timeline of completion dates for implementing the recommendations to address the deficiencies
identified in this repoli. Comments to the final report including planned completion dates for
implementation of the recommendations should be provided to our office by July 24, 2009.

       As the cognizant Federal agency for the Depatiment of Military and Veterans Affairs, we
performed a review of the Office of the Auditor General, State of Michigan, single audit and
supporting workpapers for the audit period October I, 2005 through September 30, 2007
(biennial audit period), to determine whether the audit was conducted in accordance with
government auditing stattdards and the auditing and repoliing requirements of Office of
Management attd Budget (OMB) Circular A-B3, "Audits of States, Local Governments, and
Non-Profit Organizations," (OMB Circular A-B3). Appendix A contains additional
background, scope and methodology for the review and Appendix B lists the compliance
requirements applicable to the biennial audit period ended September 30, 2007.

Background. The Department of Military and Veterans Affairs is a State of Michigan
depatiment with three primary missions: 1) to execute the duties laid down by various statutes
and the governor, 2) administration of state-supported veterans programming, attd 3) military
preparedness to assist both state and federal authorities. The Department of Military and
Veterans Affairs is funded with both state and Federal funds and operates under various
cooperative agreements with the National Guard Bureau. For the biennial audit period ended
September 30, 2007, the Department of Military and Veterans Affairs expended $168.5 million
in Federal awards of which $129.1 million was expended for Department of Defense programs.

The Office of the Auditor General audited the National Guard Operations and Maintenance
program, Catalog of Federal Domestic Assistance 12.401, and the National Guard Civilian
Youth Opportunities program, Catalog of Federal Domestic Assistance 12.404, as major
programs for the Department of Military and Veterans Affairs single audit for the biennial audit
period.

Review Results. The Department of Military and Veterans Affairs did not meet OMB
Circular A-133 reporting requirements because they did not prepare financial statements and did
not correctly prepare the Schedule of Expenditures of Federal Awards. The auditors did not
meet government auditing standards and OMB Circular A-133 requirements for the Department
of Military and Veterans Affairs single audit. Specifically, the auditors did not:

       	 report the lack of financial statements as a noncompliance with OMB Circular A-133
          requirements (Finding A);

       	 audit the National Guard Military Construction program as a separate major program
          (Finding B);

       	 perform adequate audit procedures for the audit of the National Guard Operations and
          Maintenance program to support their opinion on the major Federal program
          (Finding C); and

       	 report a finding on subrecipient monitoring for the National Guard Civilian Youth
          Opportunities program (Finding D).

As a result of these deficiencies, Federal agencies cannot rely on the audit report for assurance
that the Department of Military and Veterans Affairs is managing Federal awards in compliance
with laws, regulations, and award provisions.

Management Comments and DoD IG Response. The Office of the Auditor General
management comments to the findings and recommendations were partially responsive.
However, the Office of the Auditor General has agreed to perform additional audit procedures to
address certain deficiencies identified in this report and will be reissuing the single audit report
for the Department of Military and Veterans Affairs. Comments from the Chief Financial
Officer, Department of Military and Veterans Affairs, were partially responsive. Management
comments and our responses are discussed in the Finding and Recommendation sections and are
included in their entirety at the end of this report.




                                                 2

Findings
Finding A. Financial Statements Audit. The Department of Military and Veterans Affairs did
not prepare financial statements for the single audit of the biennial audit period ended September
30, 2007. Rather, the Department of Military and Veterans Affairs prepared financial schedules
(scope limitation) which do not constitute a complete financial presentation of the organization
because the financial schedules only provide information on revenues and the disposition of
authorizations. OMB Circular A-133 §___.310(a) requires the auditee to prepare financial
statements that reflects its financial position, results of operations or changes in net assets, and
where appropriate, cash flows for the fiscal year audited.

Because the Department of Military and Veterans Affairs did not prepare financial statements,
the audit work performed by the auditors to support the Independent Auditor’s Report on the
Financial Statements and Independent Auditor’s Report on Internal Control Over Financial
Reporting and on Compliance and Other Matters was restricted to limited information contained
in the financial schedules. This is in noncompliance with OMB Circular A-133 §__.500(b)
which requires the auditor to determine whether the financial statements of the auditee are
presented fairly in all material respects in conformity with generally accepted accounting
principles. In our opinion, the auditors should have reported the lack of financial statements as a
finding in the single audit report and issued a disclaimer of opinion because of a scope limitation.
In addition, since the Department of Military and Veterans Affairs did not prepare financial
statements, the auditors did not perform the required audit procedures to determine whether the
Schedule of Expenditures of Federal Awards was presented fairly in all material respects in
relation to the financial statements taken as a whole as required in OMB Circular A-133
§__.500(b).

Office of the Auditor General Management Comments on the Finding. The Office of the
Auditor General management believed that the Department of Military and Veterans Affairs
financial schedules meet OMB Circular A-133 reporting requirements for financial statements
because the Circular does not prescribe the basis of accounting that must be used by the auditee
to prepare financial statements. The Office of the Auditor General management stated that the
departments that are only a part of a complete fund, such as the Department of Military and
Veterans Affairs, must issue a financial presentation that is less than a complete fund
presentation. They further stated that the Department of Military and Veterans Affairs followed
the financial reporting format designated by the Office of Financial Management, State of
Michigan, and that the Department of Military and Veterans Affairs presented its financial
information on an “other comprehensive basis of accounting.” Because the presentation is on an
other comprehensive basis of accounting, their report was modified to include the required
language and a disclaimer of opinion would not have been appropriate.

DoD IG Response. OMB Circular A-133 §___.310(a) requires the auditee to prepare financial
statements that reflects its financial position, results of operations or changes in net assets, and,
where appropriate, cash flows for the fiscal year audited. We do not believe that the financial


                                                  3

schedules prepared by the Department of Military and Veterans Affairs meets the requirements
of OMB Circular A-133. Furthermore, the basis of accounting used by an auditee has no
relevance on the auditee’s ability to prepare financial statements. While the Department of
Military and Veterans Affairs may have followed the financial reporting format prescribed by the
State of Michigan, that format does not comply with the requirements of OMB Circular A-133
which implements the requirements of the Single Audit Act Amendments of 1996, Public
Law 104-156. We consider the Department of Military and Veterans Affairs financial schedules
to be “special reports” for the State of Michigan that are outside the realm of the single audit
requirements and do not satisfy the requirement for financial statements. Single audit reports are
for the use of Federal agencies and pass-through entities and need to comply with the financial
reporting requirements of OMB Circular A-133.

Finding B. Schedule of Expenditures of Federal Awards and Major Program
Determination. The Department of Military and Veterans Affairs did not correctly prepare the
Schedule of Expenditures of Federal Awards because they did not separately identify
expenditures for the National Guard Military Construction program, Catalog of Federal
Domestic Assistance 12.400. The Schedule of Expenditures of Federal Awards serves as the
primary basis for the selection of major programs subject to audit under OMB Circular A-133
requirements. OMB Circular A-133 §__.310(b)(3) requires that the Schedule of Expenditures of
Federal Awards provide total Federal awards expended for each individual Federal program and
the program Catalog of Federal Domestic Assistance number. Instead, the major military
construction expenditures for Catalog of Federal Domestic Assistance 12.400 were commingled
with the expenditures for the National Guard Operations and Maintenance program, Catalog of
Federal Domestic Assistance 12.401. Based on our discussion with Department of Military and
Veterans Affairs personnel this occurred because the expenditures for military construction are
not separately coded in the accounting system to differentiate expenditures between the
Operations and Maintenance program and the Military Construction program. OMB Circular
§___.300(a) states that the auditee shall identify, in its accounts, all Federal awards received and
expended and the Federal programs under which they were received. We obtained information
from the National Guard that shows the Department of Military and Veterans Affairs was
reimbursed approximately $47.5 million under the Military Construction program during
FYs 2006 and 2007. While the auditors performed extensive audit procedures to assess the
completeness of the Schedule of Expenditures of Federal Awards, they failed to recognize that
the expenditures for major military construction should have been reported as a separate Federal
program on the Schedule of Expenditures of Federal Awards. As a result, the auditors did not
identify the Military Construction program as a separate major program for audit using the
risk-based approach for major program determination. Under OMB Circular A-133 criteria, the
amount of program expenditures and the fact that the program had not been audited in the prior
two audit periods, would have required the Military Construction program to be selected for
audit as a major program. Since the program was not selected for audit, there is no assurance
that the Department of Military and Veterans Affairs is managing the Military Construction
program in compliance with laws, regulations, and award provisions.




                                                 4

Office of the Auditor General Management Comments on the Finding. The Office of the
Auditor General management agreed that the funding for the Military Construction program,
Catalog of Federal Domestic Assistance 12.400, was misclassified as the Operations and
Maintenance program, Catalog of Federal Domestic Assistance 12.401. However, they believe
that our draft report does not accurately reflect the audit procedures performed to ensure the
completeness and fair presentation of the information on the Schedule of Expenditures of Federal
Awards. The Office of the Auditor General management stated that had the required information
been provided by the National Guard to the Department of Military and Veterans Affairs, they
would have detected the reporting of Catalog of Federal Domestic Assistance 12.400.
Nevertheless, the Office of the Auditor General management stated that the Military
Construction program is not subject to the Single Audit Act because the description provided in
the Catalog of Federal Domestic Assistance for the program makes no mention of the single
audit requirement. As a result, the Office of the Auditor General management is requesting
written confirmation on whether the Military Construction program is subject to the Single Audit
Act and that they be allowed to postpone the audit of the program until the next single audit of
the Department of Military and Veterans Affairs.

DoD IG Response. Government auditing standards require auditors to plan and perform the
audit with due professional care. This requires obtaining an understanding of the entity and its
environment including its internal control, and the laws, regulations, and provisions of grants and
contracts sufficient to assess the risk of material misstatement and noncompliance. Because of
the complexities of the National Guard programs, this should include inquiries of not only
Department of Military and Veterans Affairs management and employees, but also of National
Guard personnel. We found that the Department of Military and Veterans Affairs Administrative
Services Manager involved in the administration of construction projects and the on-site National
Guard internal auditor to be aware of and very knowledgeable about the Military Construction
agreements and the regulations related to funding requirements.

While the National Guard cooperative agreements may not have included the Catalog of Federal
Domestic Assistance numbers, the OMB Circular A-133 Compliance Supplement for the
National Guard Operations and Maintenance program contained guidance on funding limitations
when using operations and maintenance funds for minor construction. Had the auditors gained
the knowledge and understanding of National Guard programs and applicable regulatory and
agreement requirements, they would have been aware that the costs associated with the various
Department of Military and Veterans Affairs construction projects exceeded the funding cap
allowed by Federal statute for use of operations and maintenance funds. We believe this would
have alerted the auditors to make further inquiries leading to identifying the existence of the
Military Construction program.

Based on our discussions with the National Guard Bureau Chief of Grants and Cooperative
Agreements, the Military Construction program is subject to the Single Audit Act. We agree
with the Office of the Auditor General that the Catalog of Federal Domestic Assistance
descriptions should be up-to-date and that Catalog of Federal Domestic Assistance numbers
should be included in award documents. Therefore, we will recommend that the National Guard


                                                5

Bureau update the description for the Military Construction program, Catalog of Federal
Domestic Assistance 12.400, to include the audit requirements of the Single Audit Act. We will
also recommend that the National Guard Bureau include the Catalog of Federal Domestic
Assistance numbers in all cooperative agreements awarded so that recipients can better report the
expenditures by program on their Schedule of Expenditures of Federal Awards.

Finding C. Federal Program Audit. The auditors did not perform adequate audit procedures
for the audit of the National Guard Operations and Maintenance program to support their opinion
over the major Federal program and did not perform adequate audit procedures for the Period of
Availability compliance requirement for both the National Guard Operations and Maintenance
and Civilian Youth Opportunities programs.

        Sampling Methodology and Reliability of Audit Procedures Performed. The
sampling methodology used by the auditors to select their sample to test internal controls and
compliance for the audit of the Operations and Maintenance program is flawed because the
population from which the transactions were selected included capital outlay expenditures from
another Federal program, the Military Construction program. As a result, 8 of the 17 capital
outlay transactions selected to test internal controls and compliance for the Operations and
Maintenance program came from the Military Construction program. Because statistical
sampling was used to determine the sample size necessary to provide sufficient appropriate
evidence, the auditors did not perform the planned level of testing for the Operations and
Maintenance program to support their opinion on this major program.

Furthermore, we question the reliability of the overall test results since it is unclear what
evidence was examined that enabled the auditor to conclude that the Department of Military and
Veterans Affairs is in compliance with the requirements of the Operations and Maintenance
program when 8 of the transactions were related to the Military Construction program. Since the
Military Construction program was not identified and selected for audit, the auditors did not gain
an understanding of the unique laws, regulations, and requirements applicable to the program.
Consequently, there is no assurance that the auditors tested the 8 transactions against the
appropriate requirements.

The American Institute of Certified Public Accountants (AICPA) audit guide states that if more
than one major program uses a common system of internal controls, the transactions of those
programs could be combined into one population for selecting sample sizes. Therefore, if the
auditors choose to select audit samples from the entire universe of transactions for both the
Operations and Maintenance and Military Construction programs, the auditors need to perform
audit procedures to determine the similarities and differences in the requirements and the internal
controls of both programs. Under this approach, the auditor is also required to obtain sufficient
evidence to support an opinion on compliance for each major Federal program and the audit
documentation should be presented in such a fashion that it clearly indicates that the results of
such samples, together with other audit evidence, are sufficient to support the opinion on
compliance for each major program.



                                                6

        Activities Allowed/Unallowed and Allowable Costs/Cost Principles Compliance
Requirements. The auditors did not perform internal control and compliance testing over
payroll for FY 2007 for the Activities Allowed/Unallowed and the Allowable Costs/Cost
Principles compliance requirements. The auditors documented that since an extensive review of
payroll was performed in FY 2006 and that the payroll structure remained unchanged for
FY 2007, it was not necessary to separately test payroll transactions. For FY 2006, the auditors
isolated payroll transactions into a separate population so that a separate sample comprised of
only payroll transactions would be selected for testing. However, a different sampling
methodology was used for FY 2007 in which payroll transactions were included in the overall
population of expenditures from which the sample transactions were selected. As a result, only
one payroll transaction was included in the sample for FY 2007 used to test internal control and
compliance for the Operations and Maintenance program. In our opinion, the auditors should
have tested additional payroll transactions for FY 2007 because payroll is a material expenditure
under the Operations and Maintenance cooperative agreement. Based on information received
from the National Guard, we determined that payroll costs represent approximately 46 percent of
the total expenditures for the Operations and Maintenance program when costs for capital
outlays are properly identified to the Military Construction program. In addition, the
Compliance Supplement for the Operations and Maintenance program expresses the concerns
and expectations of the National Guard for the audit of payroll costs. Specifically, the
Compliance Supplement states that individual employee compensation comprises a significant
portion of total costs charged to the Cooperative Agreement appendices. Therefore, the auditor
should give particular attention to the allocability of these costs and include tests of the time and
effort reporting system to support the distribution of compensation costs in accordance with
applicable Federal cost principles and the terms and conditions in the agreement appendices.

        Davis-Bacon Compliance Requirement. The auditors did not perform adequate audit
procedures for the Davis-Bacon compliance requirement. The auditors concluded that the
Department of Military and Veterans Affairs was exempt from the Davis-Bacon compliance
requirement based on their discussion with the Department of Military and Veterans Affairs
Administrative Services Manager and a memorandum issued by the National Guard, dated
November 24, 1993. The memorandum states that all State contracts are exempt from the
provisions of the Davis-Bacon Act even though they are funded 100 percent by Federal funds
contributed to the State from the National Guard. However, the memo also states that there are
cases when the Davis-Bacon Act applies when it is required by the Federal grant program
legislation.

        According to the OMB Circular A-133 Compliance Supplement for the Operations and
Maintenance program, the Davis-Bacon Act applies only to environmental remediation
construction subject to the Comprehensive Environmental Response, Compensation, and
Liability Act of 1980, as amended. In addition, Appendix 2 of the National Guard Master
Cooperative Agreement states that when required by Federal environmental program legislation,
the Davis-Bacon Act compliance, as supplemented by Department of Labor regulations is
required in construction contracts over $2,000 that are awarded by States and State contractors
and subcontractors. Based on this guidance, the Department of Military and Veterans Affairs is


                                                  7

not completely exempt from the Davis-Bacon Act since there may be instances where it may be
applicable. Therefore, the auditors should perform audit procedures to determine whether any
construction projects during the audit period require compliance with the Davis-Bacon Act and
perform additional audit procedures as needed.

        Matching Compliance Requirement. The auditors did not perform sufficient audit
procedures for the Matching compliance requirement. While the auditors performed audit
procedures to verify whether the Department of Military and Veterans Affairs met their matching
contributions by ensuring that the State matching requirement is correctly recorded in the project
files and accounting system and corresponds to the requirements specified in the Appendices of
the Cooperative Agreements, the auditors did not perform audit procedures to verify whether the
matching contributions came from an allowable source.

OMB Circular A-102 Common Rule (§___.24) established the basic criteria for acceptable
matching contributions (requirements are codified in the Department of Defense Grant and
Agreement Regulation, 3210.6-R, Part 33). This includes that matching funds:

      Are verifiable from the non-Federal entity’s records.
      Are not included as contributions for any other federally assisted project or program,
       unless specifically allowed by Federal program laws and regulations.
      Are necessary and reasonable for proper and efficient accomplishment of project or
       program objectives.
      Are allowed under the applicable cost principles.
      Are not paid by the Federal Government under another award, except where authorized
       by Federal statute to be allowable for cost sharing or matching.
      Are provided for in the approved budget when required by the Federal awarding agency.
      Conform to other applicable provisions of the A-102 Common Rule and the laws,
       regulations, and provisions of contract or grant agreements applicable to the program.

        Period of Availability Compliance Requirement. The audit work performed by the
auditors for the Period of Availability compliance requirement cannot be relied upon. The
transactions used to test internal controls and compliance for Period of Availability included
8 capital outlay transactions that belong to the Military Construction program which is funded
with 5-year appropriations. Because the auditors were not aware that the Military Construction
program was a separate program, the auditors tested the selected transactions against the period
of availability for the Operations and Maintenance program which is funded with 1-year
appropriations. As a result, it is questionable as to what the auditors reviewed to ensure that
funds were obligated within the period of availability and liquidated within the required
timeframe.

The Compliance Supplement for the Operations and Maintenance program states that
1) obligations may not be incurred against Federal funds for a specified year before or after the
Federal fiscal year in which the funds were appropriated, and 2) if unliquidated claims and


                                                 8

undisbursed obligations arising from the State’s performance of the agreement will remain
90 days after the close of the fiscal year, the State Military Department shall provide the National
Guard a detailed listing of uncleared obligations.

The auditors performed audit procedures to determine if the expenditures for the Civilian Youth
Opportunities program were charged prior to the beginning date or after the end date of the grant
award and determined a total of 322 transactions were charged to the grant with effective dates
after the end of the grant award. However, the auditors did not perform audit procedures to
determine whether the Department of Military and Veterans Affairs had obligated the funds for
these transactions prior to the end date of the grant award in accordance with the National Guard
requirements.

        Procurement, Suspension, and Debarment Compliance Requirement. The
auditors did not perform sufficient audit procedures for the Procurement, Suspension, and
Debarment compliance requirement. While the auditors performed adequate audit procedures
for the procurements contracted through the Department of Management and Budget, the
auditors did not perform audit procedures for the procurements made directly by the Department
of Military and Veterans Affairs. The Department of Management and Budget is a State
department under the State of Michigan that provides contracting and bill paying services for the
Department of Military and Veterans Affairs. Based on our discussions with the Department of
Military and Veterans Affairs Administrative Services Manager, there are certain procurement
contracts that are contracted directly by the Department of Military and Veterans Affairs and not
serviced through the Department of Management and Budget. While we do not know the
monetary significance of the procurements made directly by the Department of Military and
Veterans Affairs, these procurements are made outside the controls of the Department of
Management and Budget procurement process. As a result, the auditors should perform audit
procedures to assess the adequacy of internal control and compliance over these procurements.

Office of the Auditor General Management Comments on the Finding. The Office of the
Auditor General management disagreed with the blanket statement that they did not perform
adequate audit procedures to support their opinion on the National Guard Operations and
Maintenance program. However, based on information provided by the DoD IG, they have
determined that they need to perform additional audit procedures related to the compliance
requirements for Davis-Bacon Act; Matching; Period of Availability; and Procurement,
Suspension, and Debarment. The Office of the Auditor General management disagreed with the
finding related to the audit work performed for the Activities Allowed/Unallowed and the
Allowable Costs/Cost Principles compliance requirements over payroll expenditures and stated
that OMB Circular A-133 does not require the testing of separate payroll expenditures for each
fiscal year.

DoD IG Response. We commend the Office of the Auditor General for planning to perform
additional audit procedures to address the majority of the deficiencies specified in Finding C.
However, in relation to the deficiency on payroll costs for the Activities Allowed/Unallowed and
the Allowable Costs/Cost Principles compliance requirements, we still recommend additional


                                                 9

audit procedures. AICPA auditing standards requires the auditor to exercise professional
judgment when planning, conducting, and evaluating the results of compliance testing in a single
audit. This includes considering the assessment of audit risk and materiality related to each
major program as well as for each direct and material compliance requirement related to the
major program in determining the nature, timing, and extent of compliance tests to perform to
reduce detection risk to an acceptable level. The evidence provided by those tests, along with
evidence regarding inherent risk and control risk, provides the basis for expressing an opinion on
whether the auditee complied, in all material respects, with the direct and material compliance
requirements. Since payroll is a material expenditure under the Operations and Maintenance
cooperative agreement, the auditors should test additional payroll transactions for FY 2007 to
support their opinion on the Activities Allowed/Unallowed and Allowable Costs/Cost Principles
compliance requirements.

After consideration of the Office of the Auditor General management comments related to the
audit work performed on the final close-out memorandums for the reporting compliance
requirement and additional research performed, we have removed the statement pertaining to the
auditor not performing audit procedures related to the notification of unliquidated claims and
undisbursed obligations for the Period of Availability compliance requirement from the final
report. However, for future reference, the auditors need to better reference the audit work
performed on the compliance requirement if part of the test objectives of that compliance
requirement is performed and documented under another compliance requirement.

Finding D. Reporting Findings on the Schedule of Findings and Questioned Costs. The
auditors did not report a finding on the lack of written policies and procedures over subrecipient
monitoring on the Schedule of Findings and Questioned Costs.

        Finding on Subrecipient Monitoring. For the audit of the National Guard Civilian
Youth Opportunities program, Catalog of Federal Domestic Assistance 12.404, the auditors
determined that there were no written policies and procedures in place to ensure compliance with
the Subrecipient Monitoring compliance requirement. The auditors verbally advised the
Department of Military and Veterans Affairs to establish and implement written policies and
procedures over subrecipient monitoring. According to the audit staff, they did not report this
deficiency as a finding in the single audit report because they considered this to be a control
deficiency not a noncompliance issue and, therefore, did not meet the threshold to be considered
a significant deficiency for reporting. For FYs 2006 and 2007, the Department of Military and
Veterans Affairs expended $2.8 million and $3.5 million respectively for the Civilian Youth
Opportunities program. Of these amounts, the Department of Military and Veterans Affairs
passed through $1.1 million in FY 2006 and $1.7 million in FY 2007 to Starbase Inc., a nonprofit
organization to manage the Starbase program, a sub-program under Catalog of Federal Domestic
Assistance 12.404. The funds issued to Starbase Inc. represent approximately 45 percent of the
Civilian Youth Opportunities program, a significant portion of the major program.

According to OMB Circular A-133 §___510(a)(1), the auditor is required to report as audit
findings in the Schedule of Findings and Questioned Costs significant deficiencies in internal


                                                10 

control over major programs. The AICPA audit guide states that any significant deficiencies in
internal control over compliance for major programs that are noted should be reported as an audit
finding. In our opinion, the lack of written policies and procedures for subrecipient monitoring
is a significant internal control deficiency that should have been reported as a finding on the
Schedule of Findings and Questioned Costs. An entity’s policies and procedures serves as the
basis for the control activities that helps ensure the entity complies with the compliance
requirements.

Office of the Auditor General Management Comments on the Finding. The Office of the
Auditor General management disagreed that the lack of written formal procedures for
subrecipient monitoring is a significant deficiency in internal control that needs to be reported as
a finding. They also disagreed that the audit finding related to the Schedule of Expenditures of
Federal Awards be reported in both sections of the Schedule of Findings and Questioned Costs.

DoD IG Response. According to the AICPA 2008 Audit Guide on OMB Circular A-133
audits, policies and procedures that are incomplete, inadequate, outdated, or lacking for the
activities subject to a type of compliance requirement are significant deficiencies in internal
control. We believe that the lack of written policies and procedures for subrecipient monitoring
is a significant internal control deficiency that should have been reported as a finding on the
Schedule of Findings and Questioned Costs.

After consideration of the Office of the Auditor General management comments on the reporting
of the Schedule of Expenditures of Federal Awards audit finding in both sections of the Schedule
of Findings and Questioned Costs, we have removed the reporting of this issue from the final
report.

Recommendations, Management Comments, and
DoD IG Response
Recommendation 1. We recommend that the Chief Financial Officer,
Department of Military and Veterans Affairs:

       a.	 Prepare complete financial statements and revise the Schedule of Expenditures
           of Federal Awards according to the requirements of Office of Management and
           Budget Circular A-133 and provide them to the Office of the Auditor General,
           State of Michigan to perform additional audit procedures necessary for the
           biennial audit period ended September 30, 2007 single audit at no additional cost
           to the Federal government.

Department of Military and Veterans Affairs Comments. The Department of Military and
Veterans Affairs management concurred with the recommendation to revise the Schedule of
Expenditures of Federal Awards but nonconcurred with the recommendation to prepare complete


                                                 11

financial statements. The Department of Military and Veterans Affairs management stated that
the Schedule of Revenue and the Schedule of Sources of Disposition of Authorization serves as
their financial statements and that the preparation of additional financial statements is
unnecessary. The Department of Military and Veterans Affairs management stated that OMB
Circular A-133 §__.310(a) allows financial statements to reflect the results of operations or
changes in net assets and that they chose to present their financial statements to show the results
of operations instead of changes in net assets.

DoD IG Response. OMB Circular A-133 §___.310(a) requires the auditee to prepare financial
statements that reflects its financial position, results of operations or changes in net assets, and
where appropriate, cash flows for the fiscal year audited. The “or” is only between the option of
reporting financial information on the results of operations and changes in net assets. Financial
statements that reflect the auditee’s “financial position” should always be provided. The
Department of Military and Veterans Affairs Schedule of Revenue and the Schedule of Sources
of Disposition of Authorization does not meet the requirements of OMB Circular A-133. We
request that the Chief Financial Officer, Department of Military and Veterans Affairs, reconsider
its position on this recommendation and comment on it in response to this final report.

       b.	 Identify all costs related to the National Guard Bureau Military Construction
           program as a separate Federal program in the accounting system and accounts.

Department of Military and Veterans Affairs Comments. The Department of Military and
Veterans Affairs management concurred with the recommendation. The Department of Military
and Veterans Affairs will ensure that the required steps are taken to identify the National Guard
Bureau Military Construction Program as a separate Federal program on the Schedule of
Expenditures of Federal Awards and that a separate accounting code will be used to properly
track the expenditures in the accounting system. The Department of Military and Veterans
Affairs suggest that the Department of Defense include the Catalog of Federal Domestic
Assistance numbers in all National Guard Bureau agreements.

DoD IG Response. In response to the Department of Military and Veterans Affairs suggestion,
we have added Recommendation 3a to the Chief of the National Guard Bureau to this report.

       c.	 Notify the DoD Office of Inspector General when the Office of the Auditor
           General, State of Michigan, provides the revised reporting package to the
           Department of Military and Veterans Affairs so that we can perform a follow-up
           quality control review before the Department of Military and Veterans Affairs
           submits the revised single audit reporting package to the Federal Audit
           Clearinghouse.

Department of Military and Veterans Affairs Comments. The Department of Military and
Veterans Affairs management concurred with the recommendation.




                                                 12 

       d.	 Identify as unallowable any costs associated with the audit services provided by
           the Office of the Auditor General, State of Michigan, until the audit is
           performed in accordance with OMB Circular A-133 and government auditing
           standards.

Department of Military and Veterans Affairs Comments. The Department of Military and
Veterans Affairs management concurred with the recommendation.

Recommendation 2. We recommend that the Auditor General, Office of the
Auditor General, State of Michigan:

       a. 	 Redo the single audit of the Department of Military and Veterans Affairs for the
            biennial audit period ended September 30, 2007, at no additional cost to the
            Federal government and revise the reporting package to reflect at a minimum,
            the date the work is completed. The audit procedures should address the
            deficiencies identified in this report and be performed in accordance with the
            requirements of Office of Management and Budget Circular A-133 and
            government auditing standards. The revised reporting package should be
            provided to the Department of Military and Veterans Affairs.

Office of the Auditor General Comments. The Office of the Auditor General management
believes that the Department of Military and Veterans Affairs financial schedules meet OMB
Circular A-133 reporting requirements for financial statements. The Office of the Auditor
General management have evaluated the effect of the misclassification of the Military
Construction program on the sufficiency of their audit procedures and opinions on the financial
schedules and the Department of Military and Veterans Affairs’ compliance with Federal
program requirements for the other 2 major programs audited, the National Guard Operations
and Maintenance program and the Civilian Youth Opportunities program. Accordingly, the
Office of the Auditor General will be reissuing the single audit report for the Department of
Military and Veterans Affairs. As stated in their management comments to the finding, the
Office of the Auditor General management has requested a waiver to postpone the audit of the
National Guard Military Construction program until the next single audit of the Department of
Military and Veterans Affairs.

DoD IG Response. We consider the Office of the Auditor General management comments to
the findings and corrective action taken and planned to be partially responsive to the
recommendation. We maintain that the financial schedules prepared by the Department of
Military and Veterans Affairs do not meet the financial reporting requirements of OMB Circular
A-133 as stated above in our response to the Office of the Auditor General management
comments to Finding A. We do not have the authority to waive Single Audit Act auditing
requirements and we do not believe that it is in the best interest of the Federal government to do
so. We request that the Auditor General reconsider its position on this recommendation and
comment on it in response to the final report by July 24, 2009.


                                                13

Recommendation 3.                     We recommend that the Chief, National Guard
Bureau:

       a. 	 Require grants officers to identify and include the Catalog of Federal Domestic
            Assistance title and number in award documents for all National Guard
            cooperative agreements awarded to the States and the U.S. territories in
            accordance with the requirements of the Office of Management and Budget
            Circular A-133 §_.400(c)(1).

       b. 	 Update the description for the National Guard Bureau Military Construction
            program, Catalog of Federal Domestic Assistance number 12.400, to include
            language for the audit requirements of the Single Audit Act. The updated
            language will provide guidance to recipients and auditors that funds received
            under the Military Construction program are subject to single audit.

Other Matters. The audit work perfOlmed by the auditors for the Repoliing compliance
requirement for the Standard Form 270 report is adequate. However, based on information
received from the National Guard Bureau United States Property Fiscal Officer office, the
Standard Form 272 report will be used for advance payments when draw downs are by electronic
fund transfers. As a result, the auditors will also need to perfolm audit procedures on the
Standard Form 272 report in future single audits.

        We appreciate the courtesies extended to the audit staff. For additional information on
this repOli, please contact me at (703) 604-8877 (DSN 664-8877) or Ms. Janet Stem at (703)
604-8750 (DSN 664-8750).


                                                ~If. jtnlo
                                             Carolyn R. Davis
                                             Assistant Inspector General
                                              for Audit Policy and Oversight




                                               14 

Appendix A. Quality Control Review Process 


Background, Scope and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the financial
management of State and Local Governments and nonprofit organizations by establishing one
uniform set of auditing and reporting requirements for all Federal award recipients required to
obtain a single audit. OMB Circular A-133 establishes policies that guide implementation of the
Single Audit Act and provides an administrative foundation for uniform audit requirements of
non-Federal entities administering Federal awards. Entities that expend $500,000 are subject to
the Single Audit Act and the audit requirements in OMB Circular A-133 and therefore must have
an annual single or program-specific audit performed under Government Auditing Standards and
submit a complete reporting package to the Federal Audit Clearinghouse.

We reviewed the Office of Auditor General single audit of the Department of Military and
Veterans Affairs for the biennial audit period ended September 30, 2007 and the resulting
reporting package that was submitted to the Federal Audit Clearinghouse dated July 16, 2008,
using the 1999 edition of the “Uniform Quality Control Guide for the A-133 Audits” (the Guide).
The Guide applies to any single audit that is subject to the requirements of OMB Circular A-133
and is the approved President’s Council on Integrity and Efficiency 1 checklist used for
performing the quality control reviews. We performed the review from July 2008 through May
2009. The review focused on the following qualitative aspects of the single audit:

                     Qualification of Auditors,

                     Independence,

                     Due Professional Care,

                     Planning and Supervision,

                     Internal Control and Compliance testing,

                     Schedule of Expenditures of Federal Awards, and

                     Data Collection Form.

.




1
 The President’s Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency
combined into the Council of the Inspectors General on Integrity and Efficiency in accordance with the Inspector
General Reform Act of 2008.


                                                        15 

  Appendix B. Compliance Requirements for the 

              Biennial Audit Period 

                                   Operations & Maintenance                   Civilian Youth Opportunities
                                  program (Catalog of Federal                 program (Catalog of Federal
                                  Domestic Assistance 12.401)                 Domestic Assistance 12.404)

OMB Circular A-133              Applicable         Not Applicable/           Applicable         Not Applicable/
Compliance                                          Not Material                                 Not Material
Requirements
Activities                           X                                             X
Allowed/Unallowed
Allowable Costs/Cost
                                     X                                             X
Principles
Cash Management                      X                                             X
Davis-Bacon Act 2                                          X                                               X
Eligibility                                                X                       X
Equipment and Real                                         X                                               X
Property Management
Matching, Level of                   X                                             X
Effort, Earmarking
Period of Availability of            X                                             X
Federal Funds
Procurement,                         X                                             X
Suspension, and
Debarment
Program Income                                             X                                               X
Real Property                                              X                                               X
Acquisition and
Relocation Assistance
Reporting                            X                                             X
Subrecipient Monitoring                                    X                       X
Special Tests and                                          X                                               X
Provisions


  2
   Although the auditors concluded that the Davis-Bacon Act compliance requirement is not applicable, we
  determined that there may be instances when this compliance requirement may apply.
                                                        16

Department of Military & Veterans Affairs
Comments




                      17 

18 

Office of the Auditor General Comments 





                      19 

20 

21 

22 

23 

24 

25 

26 

27 

28 

29 

30 

31 

32 

33 

34 

35 

